\

PETITIONER'S APPENDIX A

k

PENNSYLVANIA JUDICAL DECISIONS 12021 / 2020 Pa. Super. Unpub. LEXIS 3379::Commonwealth v. Forman::October 27, 2020

COMMONWEALTH OF PENNSYLVANIA v. CHRISTOPHER FORMAN, Appellant
SUPERIOR COURT OF PENNSYLVANIA
2020 Pa: Super. Unpub: LEXIS 3379
No. 3389 EDA 2019
October 27,2020, Decided
October 27, 2020, Filed
Notice:
NON-PRECEDENTIAL DECISION - SEE SUPERIOR COURT I.O.P. 65.37
Editorial Information: Prior History
Appeal from the Judgment of Sentence Entered April 6, 2017. In the Court of Common Pleas of Philadelphia County Criminal
Division at No(s): CP-51 -CR-0006295-2014.
Judges: BEFORE: LAZARUS, J., DUBOW, J., and FORD ELLIOTT, P.J.E: MEMORANDUM BY LAZARUS, J.
PENNSYLVANIA JUDICAL DECISIONS 12021 / 2020 Pa. Super. Unpub. LEXIS 3379::Commonwealth v. Forman::October 27,20201 Opinion

Opinion
Opinion by:

LAZARUS
Opinion

MEMORANDUM BY LAZARUS, J.:
Christopher Forman, a/k/a Christopher Coker (Forman), appeals from the judgment of sentence, entered in the Court of
Common Pleas of Philadelphia County, after a jury convicted him of burglary,^ criminal trespass,2 criminal conspiracy,®
and two counts of recklessly endangering another person.^ Upon careful review, we affirm.
On February 10, 2014, at approximately 7:15 pm, the victims, Eliezer Colon and Moraima Alicea, were returning home
with their two children® when they discovered that Forman and an unidentified male were inside their home. N.T. Jury
Trial, 1/10/17, at 4. Colon first observed, from his vehicle, that the "upstairs light was on" in the house, and asked Alicea
whether she forgot to turn it off; when she said no, he assumed that she was mistaken. Id. at 8. As the family tried to
enter their home, Alicea noted that she could not unlock the front door. At this point, Colon "realized that somebody was
in there" because the deadbolt, which prevented their entry, could only be locked from the inside. Id. at 8-9. He then
noticed a crack in the window blind and instructed his family to get back in the car. Id. at 9. Once inside the vehicle,
Alicea called 911 to report a burglary. Id. at 75-76, 80.
Meanwhile, Colon drove around to the back of the house and spotted a black Ford F-150 pickup truck idling by the back
door, with Forman and another male attempting to carry a large, several-hundred-pound gun safe out of the house.® Id.
at 6-10, 34-37. Upon seeing the homeowners return, the burglars left the safe and fled the scene separately; the
unidentified male escaped on foot while Forman drove away in the pickup truck. Id. at 13-14. With his family still in the
vehicle, Colon pursued Forman in a high-speed chase down Roosevelt Boulevard. Eventually, Forman spotted a police
vehicle parked ahead of him, made a sudden U-turn down the same lane he was traveling, crashed into the victims'
’ vehicle, continued driving away, lost control of his truck,7 and crashed into a tree. Id. at 16-18. Forman proceeded to flee
on foot, with Colon still in pursuit, before eventually turning to engage Colon. Colon was able to "hold[j Forman down”
until police arrived. Id. at 20-21.
Upon returning home, Colon and Alicea discovered that the house had been ransacked; "[ejverything was out [of] the
drawers, [the burglars ate] food out [of their] refrigerator," and the following items were stolen: one fifty-five-inch
television, two Sony PlayStations, fifty PlayStation videogames, one iPhone, various pieces of jewelry, and twelve bottles
of CTroc vodka. Id. at 21,47.

pahot

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions and terms and
conditions of the Matthew Bender Master Agreement.

Following trial, a jury convicted Forman of the abovementioned crimes. Sentencing was deferred pending a pre-sentence
investigation and mental health evaluation. Prior to sentencing, the Commonwealth notified Forman that it was pursuing a
mandatory minimum sentence pursuant to Pennsylvania's "second strike" rule. See 42 Pa.C.S.A. § 9714 (relating to
second and subsequent crimes of violence). Forman stipulated that he had been previously convicted of voluntary
manslaughter, a crime of violence under section 9714, but challenged whether the instant conviction for first-degree
burglary qualified as a crime of violence as defined under that section. See N.T.„Sentencing, 4/6/17, at 7-9, 17-18; see
also 42 Pa.C.S.A. § 9714(g) (only burglary under section 3502(a)(1) constitutes crime of violence); He argued that because Colon and his family were locked out of-their home, at.the tirjie of the burglary, no. one Was "preset” durfng its
commission; therefore, it was not a second orsub^eqOenJ crime dt violence as defin!dJby sectionSf714*N.T. Sentencing,
4/6/17, at 7-9, 17-18. The sentencing court disagreed^explaining to Forman that:
[T]he Commonwealth has met the requirements under [sjection 9714. This conviction does qualify as a second strike
as it relates to the burglary charge.
Sir, those people came home. It was their house, and when they tried to enter, tfiey were stopped because of you
and your cohorts.
*
:*
\
..
3
\.
***
*
[Tjhis matter does qualify under the statute ... based upon the facts that this [cjourt heard with respect to the
[complainants'] attempted reentry [in]to their own home[,] and the response of the defendant thereafter, when they
went around the back[] and the high speed chase [then] ensued Id. at 31-33.
The court applied the mandatory minimum "second strike" provision and sentenced Forman to an aggregate term of
incarceration of 15 1/2 to 44 years' incarceration. N.T. Sentencing, 4/17/17, at 6-18. A post-sentence motion was filed,
which the court subsequently denied.® On November 19, 2019, the trial court entered an order on the docket denying
Forman's timely post-sentence motion. Forman timely appealed that order on November 23, 2019; both he and the trial
court complied with Pa.R.A.P. 1925. Forman raises the following issues for our review:
1. Was [Forman] illegally sentenced pursuant to 42 Pa.C.S.A. § 9714 insofar as the Commonwealth did not'
sufficiently establish that [Forman] committed a crime of violence with respect to jhe char'gd of burglary ift;the matter
sub judice as no person was present in the residence at the time of the burglary? \ ^ j T '' V \
*
2. Should the mandatory minimum sentence imposed by the trial court under 42 Pa.C.S.A. § 9714 be vacated, and
this matter remanded for a new sentencing hearing, due to the fact that [section] 9714 is unconstitutional as drafted
insofar as it violates [Format's rights under the Fifth and/or Sixth Amendment to the U.S. Constitution (made
applicable in this matter by the Fourteenth Amendment to the U.S. Constitution) and Article I, § 9 of the Pennsylvania
Constitution?Brief of Appellant, at 4-5.
First, Forman argues that the evidence presented at trial is legally insufficient to sustain his conviction for burglary under
18 Pa.C.S.A. § 3502(a)(1), and that accordingly, his conviction and the mandatory minimum sentence imposed on that
count pursuant to section 9714 are illegal and must be vacated. Brief of Appellant, at 22.
• •
?
Whether sufficient evidence exists to support's verdict is a question, of law;.our standard of review is da fjoyo.arfd oto­
scope of review \s‘p\enarf>Cpmmonwealth'vyrejada,20'\5 PA Simper 2, ip7A.3ri.788f 792 (Pa. SOper; 2*015). We * ;
review the evidence in*the llgKftnost fatofatSlelo the Commonwealth as verdict winner to determine whether there is\ ;
sufficient evid^nceto aljpw the fact-finder to find every element of a crime beyond a reasonable'doubt Id. Additional!/ is
"[w]hen reviewing the legality of a sentence, our standard of review is de boyo.and ouY'scopfe of review is plenary." .
Commonwealth v. Brown, 2017 PA Super 79, 159 A.3d 531, 532 (Pa. Super. 2017).
•i
Section 3502 of the Crimes Code defines burglary, in relevant part, as.follows:
v> ■
§ 3502. Burglary.

.*

. 4

t

(a) Offense defined.-A person commits the offense of burglary if, with the intent to commits crime therein,Jthe ,:
%
person:
i

•'

. ->l i .11

(1) (i) enters a building or occupied structure, or separately secured or occupied portion thereof, that is adapted for
overnight accommodations in which at the time of the offense any person is present and the person commits,
attempts or threatens to commit a bodily injury crime therein;
(ii) enters a building or occupied structure, or separately ^secured or dccupied.portjon thereof that is adapted -for ' /
. overnight accommodations, in which at the time of the ^offense anv»person is present:(2) enters a building or
occupied structure, or Separately secured’or occupied portion thereof fhat is adapted for overnight'accommodations
jn which at the time of the offense no person is present;! 8 Pa.C.S.A. § 3502(a) (emphasis added). Burglary is a

s

A

•. .

pahot

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNefcis Group. All rights reserved. Use of this product is subject to the restrictions and terms and
’ V
conditiohs. of the Matthew Bender Master Agreement.
l .
.1

. i

-

felony of the first degree; however, in cases involving structures not adapted for overnight accommodations where • "
no person is present, the offense constitutes second-degree burglary. 18 Pa.C.S.A. § 3502(a)(4), (c)(1)r(2)(i). ”[T]he ;
Crimes Code treats first-degree burglary distinctly from second-degree burglary [in that] first-degr-ee-hurcilarv
contemplates the potential for confrontation, whereas second-degree burglary does not."® Commonwealth v.
Chester, 627 Pa. 429, 101 A.3d 56, 64,(Pa. 2014). Pursuant to section 9714, only burglaries under section
3502(a)(1 )-burglaries of a structure adapted for overnight accommodations at which time someone is
present-constitute "crimes of violence" triggering a mandatory minimum sentence. 42 Pa.C.S.A. 9714.

*

Forman argues that, given the unequivocal testimony from Colon and Alicea that they were unable to enter their front
door at the time of the burglary, "there is no evidence of record that any person was present inside the complainant's
home when [Forman]... entered [] or remained within." Brief of Appellant, at 24. Forman repeatedly asserts throughout
his brief that, because no person was present "inside the complainant's home" during the burglary, see id. at 24, 25, 28
(emphasis added), no person was "present" at all for purposes of section 3502(a)(1); therefore, his conviction cannot be
sustained. He is entitled to no relief, as his victims, upon returning home and finding themselves locked out, spotted
Forman in their backyard before chasing and apprehending him; thus, they were present during the burglary.
We recognized in Commonwealth v. Dickison, 334 Pa. Super. 549, 483 A.2d 874 (Pa. Super. 1984), that:
The different gravity score[] for burglaries ... where persons are present... is premised upon the likelihood of
greater mischief[.j... Even if no further crime is committed, the presence of the victims and the potential for
harm to them suggest an offense possessing gravity greater than when no person is present/cf. We reiterated those
concerns in Commonwealth v. Jackson, 401 Pa. Super. 426, 585 A.2d 533 (Pa. Super. 1991), where we held that,
when a homeowner is seated on the back porch of her home at the time it is burglarized, the homeowner is present
"within the structure" for purposes of calculating the offense gravity score under the sentencing guidelines.
Specifically, in Jackson, we affirmed the trial court's holding that the defendant committed "a value seven (7)
[b]urglary,"-a "[b]urglary of a structure adapted for overnight accommodations [when] any person is present,"-based
on the victim being seated on her back porch at the time of the offense. Id. at 534-35. There,
The victim was unaware of the crime until the police returned to the scene and informed her that they witnessed the
defendant exit the front door of her house. We held that, even though the victim was unaware of the defendant's
presence in her home, this was a case where the likelihood of greater mischief was present.Commonwealth
v. Stepp, 438 Pa. Super. 499, 652 A.2d 922, 923 (Pa. Super. 1995) (discussing Jackson, supra).
In Stepp, supra, where the victim returned to his mobile home to find a burglar exiting the back door, we concluded that
"under 42 Pa.C.S.A. § 9721 [,] burglary ... 'in which at the time of the offense any person is present1 includes
burglaries where someone enters the structure while the perpetrator is still inside[.]". Id at 924.; see also
Commonwealth v. Knowles, 2006 PA Super 4, 891 A.2d 745 (Pa. Super. 2006) (holding "presence" requirement under
section 9714 satisfied "where a person returns to the structure while a perpetrator is still [there]").
Forman submits that Stepp is inapposite because, unlike the matter sub judice, the homeowner in Stepp actually
entered his mobile home at the time of the burglary. Brief of Appellant, at 30. We explained, however, that "[t]he same
rationale which is applied in Dickison and Jackson concerning 'the likelihood of greater mischief is applicable to a case
such as the present one where the victim returns home only to find the sanctity and security of his home
shattered by an intruder." Stepp, supra at 924 (emphasis added).
This Court further explained in Stepp that "a technical application of the definition of burglary misses the purpose and
spirit which underlie the different gravity offense scores.... A potentially violent encounter exists whenever a person
discovers an intruder inside his home." Id. at 923. We recognized that the "proper approach" considers that "'the
likelihood for greater mischief and violence is equally present both when a person returns to their residence and
discovers an intruder and when a person already within the home discovers an intruder." Id. (emphasis added).
Here, the potential for greater mischief and violence was present and was actually realized when Colon encountered
Forman exiting his home and, like the victim in Stepp, proceeded to chase him until police took over. As the sentencing
court explained to Forman:
This case, while it is a burglary, had aspects to it where you endangered the lives of not [only] yourself, but the []
people in the car whose home you broke into that [] interrupted you[,] including a child.
You struck their vehicle. You ended up hitting a bloody tree ... and you still continued to fight.N.T. Sentencing,
4/17/17, at 14-15.
Accordingly, the evidence was sufficient to prove the victims' presence at their home at the time of the burglary, Stepp,
supra; Jackson, supra; Dickison, supra, and sustain Forman's conviction under section 3502(a)(1)(ii). Thus, the court

pahot

3

©2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions and terms and
conditions of the Matthew Bender Master Agreement.

did not err in imposing a mandatory minimum "second strike" sentence on that count pursuant to section 9714 where
Forman stipulated to committing a prior "crime of violence" under section 9714(g).
Next, Forman argues that 42 Pa.C.S.A. § 9714 is unconstitutional as drafted in that it increases the minimum punishment
for a crime based on a fact not submitted to a jury and proven beyond a reasonable doubt; specifically, a prior conviction
for a crime of violence. Brief of Appellant, at 38-59. He is entitled to no relief.
The Supreme Court of the United States held that any fact-other than a prior conviction-that increases a mandatory
minimum sentence for an offense must be submitted to the jury and proven beyond a reasonable doubt. Alleyne v.
United States, 570 U.S. 99, 133 S. Ct. 2151, 186 L. Ed. 2d 314 (2013). (emphasis added). This Court noted in
Commonwealth v. Reid, 2015 PA Super 135, 117 A.3d 777 (Pa. Super. 2015), that Alleyne did not overturn prior
precedent holding that prior convictions are sentencing factors and not elements of offenses. Id. at 784; see
A/mendarez-Torres v. United States, 523 U.S. 224, 118 S. Ct. 1219,140 L. Ed. 2d 350 (1998) (recognizing narrow
exception for prior convictions to rule that any fact increasing punishment for defendant must be submitted to jury and
proven beyond reasonable doubt).
We specifically held in Reid that section 9714 is not rendered unconstitutional by Alleyne, as it provides for mandatory
minimum sentences based on prior convictions-specifically, crimes of violence. Recently, our Supreme Court, in a per
curiam order, affirmed our decision in Commonwealth v. Bragg reaching the same result. See 2016 PA Super 25, 133
A.3d 328 (Pa. Super. 2016) (challenge to mandatory minimum sentence for subsequent crimes of violence pursuant to
section 9714 has no merit), afTd per curiam, 642 Pa. 13,169 A.3d 1024 (Pa. 2017).
Here, Forman was previously convicted of voluntary manslaughter, a crime of violence that qualifies as a first strike. See
42 Pa.C.S.A. § 9714(g). The Commonwealth timely filed notice of its intention to seek a second strike mandatory
minimum sentence for first-degree burglary. Accordingly, under Reid and Bragg, the trial court’s imposition of the
mandatory minimum sentence for first-degree burglary in accordance with section 9714 was not unconstitutional. 11
Judgment of sentence affirmed.
Judgment Entered.
Date: 10/27/2020
PENNSYLVANIA JUDICAL DECISIONS/ 2021 / 2020 Pa. Super. Unpub. LEXIS 3379::Commonwealth v. Forman::October 27, 2020 / Footnotes

Footnotes

1
18 Pa.C.S.A. § 3502(a)(1).
2
18 Pa.C.S.A. §3503.
3
18 Pa.C.S.A. § 903.
4
18 Pa.C.S.A. § 2705.
5
Colon and Alicea testified.that they left the house with their children that day around 7:30 in the morning. N.T. Jury Trial
1/10/17, at 4, 80.
6
Colon explained that "The back door leads directly into the house. There's no gate or nothing [sic]. It's just the back of the
house[;] a little driveway section and then the back door. [On the other side of that back door is t]he basement." N.T. Jury
Trial, 1/10/17, at 12.
7
Colon testified that the road "was kind of icy because it was winter time." N.T. Trial, 1/10/17, at 18.
8

pahot

4

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions and terms and
conditions of the Matthew Bender Master Agreement.

Thereafter,
[Forman] filed a [n]otice of [a]ppeal on May 10, 2017. A Statement of Errors Complained of on Appeal pursuant to
Pa.R.A.P. [] 1925(b) was ordered [] on May 24, 2017. The statement was filed.on June 14, 2017 requesting an
extension of time to file a supplemental statement of errors upon receipt of the notes of testimony. [The court granted
the extension.] After receiving [them], that statement was filed on July 28, 2017.
On July 30, 2018, th[e c]ourt filed its 1925(a) [opinion addressing [FormanJ's issues. On April 10, 2019, the Superior
Court reversed and remanded die case for the trial court to determine who filed the post-sentence motion in this case[,
Forman] or prior counsel, Mary Maran, Esquire. Attorney Maran informed [the trial] court that she had filed the
post-sentence motion on behalf of [Forman]. On August 6, 2019, the Superior Court quashed the appeal due to the fact
that [Format's post-sentence "motion was still pending at the time [Forman] filed his counseled notice of appeal on May
10, 2017, and it was never formally disposed of by order docketed of record." [See Commonwealth v. Forman, 221
A.3d 239 (Pa. Super, filed 2019) (unpublished memorandum)].Trial Court Opinion, 1/13/20, at 3.
9
In Chester, our Supreme Court rejected the appellant's contention that his first-degree burglary conviction was not
"violent behavior" because he did not employ violence during the burglary. See id., supra.
10
Moreover, we observed:
[l]t may be true that some burglars are more 'professional’ than others and plan their criminal activity so that the
occupants are most likely absent!,] ■ ■ ■ [but] it does not advance the interests of justice to 'reward' the burglar... simply
because he was lucky at the moment he entered the then[-]unoccupied structure.Stepp, supra at 924. Similarly, it does
not advance the interests of justice to reward Forman for using the deadbolt to prevent the victims' entry during the
burglary.
11
Forman dedicates a substantial portion of his appellate brief to arguing that Almendarez-Torres was wrongly decided
and is "due to be overruled." Brief of Appellant, at 52. This, however, we cannot do. Bosse v. Oklahoma, 137 S.Ct. 1,2
196 L. Ed. 2d 1 (2016) ("It is this Court's prerogative alone to overrule one of its precedents."). Forman further submits
that Bragg "is [similarly] due to be overturned," and explains that these "good faith arguments] for a change in the
existing law ... [are] made to fully preserve [his appellate] rights." Brief of Appellant, at 39.

pahot

5

©2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights resconditions of the Matthew Bender Master Agreement.

'I

PETITIONER'S APPENDIX B

j

IN THE SUPREME COURT OF PENNSYLVANIA
EASTERN DISTRICT

COMMONWEALTH OF PENNSYLVANIA,

No. 459 EAL 2020

Respondent
Petition for Allowance of Appeal
from the Order of the Superior Court
v.
CHRISTOPHER FORMAN,
Petitioner
ORDER

PER CURIAM
AND NOW, this 13th day of April, 2021, the Petition for Allowance of Appeal is
DENIED.

A True Copy
As Of 04/13/2021

Attest:
Patricia A. JotTRSon
Chief Clerk
Supreme Court of Pennsylvania

PETITIONER’S APPENDIX .C

\

\

•V ■■■■• ,.y : l^y.

*

INFORMATION

Commonwealth of Pennsylvania ■
Court of Common Pleas
County of Philadelphia
1st Judicial District

Commonwealth of Pennsylvania
v.
Christopher Forman

Docket No: CP-51-CR-0006295-2014

The Attorney for the Commonwealth of Philadelphia County by this information charges that in the County of
Philadelphia, Pennsylvania, Christopher Forman:

r

«

COUNT 1:

Simple Assault - (M2)

Offense Date: 02/10/2014

18 § 2701 §§ A

Attempted to cause, or intentionally, knowingly, or recklessly caused, bodily injury to another; and/or negligently caused bodily injury to
another with a deadly weapon; and/or attempted by physical menace to put another in fear of imminent serious bodily injury;
Victim: Alicea Moraima
COUNT 2:

Recklessly Endangering Another Person - (M2)

Offense Date: 02/10/2014

18 § 2705

Recklessly engaged In conduct which placed or may have placed another person in danger of death or serious bodily injury
Victim: Alicea Moraima
COUNT 3:

Burglary - Overnight Accommodation, Person Present - (F1)

Offense Date: 02/10/2014

18 § 3502 §§ A1

Entered a building or occupied structure, or separately secured or occupied portion thereof, with intent to commit a crime therein; said
building, structure, or portion thereof was adapted for overnight accommodation, and an individual was present at the time of entry
Victim: Alicea Moraima
COUNT 4:

Conspiracy - (F1)

Offense Date: 02/10/2014

18 § 903

With the intent of promoting or facilitating the commission of a crime, agreed with another person or persons that they or one or more
of them would engage in conduct which would constitute such crime, or an attempt or solicitation to commit such crime, and/or agreed
to aid another person or persons in the planning or commission of a crime, or of an attempt or solicitation to commit such crime
Objective: Assault and Robbery
Overt Act: Assaulted and Robbed the Complainant

v

COUNT 5:

Crim Tres-Break Into Structure - (F2)

Offense Date: 02/10/2014 .

18§3503§§AHI

Knowing that he or she was not licensed or privileged to do so, broke into an building or occupied structure or separately secured or
occupied portion thereof
Victim: Alicea Moraima
Location: 6627 Large Street, Philadelphia, PA 19149

CP-51-CR-0006295-2014 Comm. v. Forman, Christopher
Information Filed

COUNT 6:

Crim'l Misch-Tamper W/Property - (F3)

Offense Date: 02/10/2014

18 §3304 §§ A2

CPCMS 9001

7158665621
1

Printed: 06/05/2014 7:19:04AM

: .•gv:.-;.:«i^.^.-:-i..-..r-jaAVjt.-’-v..'......... •.•• - ••

'

INFORMATION

Commonwealth of Pennsylvania
Court of Common Pleas
County of Philadelphia
1st Judicial District

Commonwealth of Pennsylvania
v.
Christopher Forman

Docket No: CP-51-CR-0006295-2014
Intentionally or recklessly tampered with tangible property of another so as to endanger person or property
Victim: Alicea Moraima
Damaged Property: Rear Door

r

COUNT 7:

Theft By Unlaw Taking-Movable Prop - (F3)

Offense Date: 02/10/2014

18§3921 §§A

«

Unlawfully took, or exercised unlawful control over, movable property of another with intent to deprive him or her thereof
Victim: Alicea Moraima
Property: Electronics, Jewelry
COUNT 8:

Receiving Stolen Property - {F3)

Offense Date: 02/10/2014

18 § 3925 §§ A

;

Intentionally received, retained, or disposed of movable property of another knowing that it had been stolen, or believing that it had
probably been stolen, without intent to restore such property to the owner

i

I
I

Victim: Alicea Moraima
Stolen Property: Electronics, Jewelry

;

COUNT 9:

Robbery-Threat Immed Ser Injury - (F1)

Offense Date: 02/10/2014

18 §3701 §§A1li

In the course of committing a theft, inflicted serious bodily injury upon another; and/or threatened another with, or intentionally put
another in fear of, immediate serious bodily injury; and/or committed or threatened to immediately to commit a felony of fee first or
second degree; and/or inflicted bodily injury upon another, or threatened another with or intentionally put another in fear of immediate
serious bodily injury; and/or physically took or removed property from the person of another by force
Victim: Alicea Moraima

i

I

COUNT 10:

Burglary-Overnight Accommodation, Person Present - (F1)

Offense Date: 02/10/2014

18 §3502 §§ A1

Entered a building or occupied structure, or separately secured or occupied portion thereof, wife intent to commit a crime therein; said
building, structure, or portion thereof was adapted for overnight accommodation, and an individual was present at fee time of entry
Victim: Eliezer Colon
Location: 6627 Large Street, Philadelphia.PA 19149
v

COUNT 11:

Conspiracy - (F1)

Offense Date: 02/10/2014

18 §903

With the intent of promoting or facilitating the commission of a crime, agreed with another person or persons feat they or one or more
of them would engage in conduct which would constitute such crime, or an attempt or solicitation to commit such crime, and/or agreed
to aid another person or persons in fee planning or commission of a crime, or of an attempt or solicitation to commit such crime
Objective:. Assault and Robbery
Overt Act: Assaulted and Robbed the Complainant
CPCMS 9001

2

Printed: 06/05/2014 7:19:04AM

;•

:'v. ,%. +•!>:,• ,

...CJ.

*

.5*. jt£wjs.JJL:us ul-.i-

INFORMATION

Commonwealth of Pennsylvania
Court of Common Pleas
County of Philadelphia
1st Judicial District

Commonwealth of Pennsylvania
v.
Christopher Forman

Docket No: CP-51-CR-0006295-2014

I

i

r
■j

COUNT 12:

Crim Tres-Break Into Structure - (F2)

Offense Date: 02/10/2014

18 § 3503 §§ A1II

'

'

Knowing that he or she was not licensed or privileged to do so, broke into an building or occupied structure or separately secured or
occupied portion thereof
Victim: Eliezer Colon
Location: 6627 Large Street, Philadelphia,PA 19149
COUNT 13:

Crim'l Misch-Tamper W/Property - (F3)

Offense Date: 02/10/2014

18§3304§§A2

Intentionally or recklessly tampered with tangible property of another so as to endanger person or property
Victim: Eliezer Colon
Damaged Property: Vehicle, Rear Door
COUNT 14:

Theft By Unlaw Taking-Movable Prop - (F3)

Offense Date: 02/10/2014

18§3921§§A

Unlawfully took, or exercised unlawful control over, movable property of another with Intent to deprive him or her thereof
Victim: Eliezer Colon
Property: Jewelry, Electronics
COUNT 15:

Receiving Stolen Property - (F3)

Offense Date: 02/10/2014

18§3925§§A

Intentionally received, retained, or disposed of movable property of another knowing that it had been stolen, or believing that it had
probably been stolen, without intent to restore such property to the owner
Victim: Eliezer Colon
Stolen Property: Jewelry, Electronics
COUNT 16:

Simple Assault - (M2)

Offense Date: 02/10/2014

18 § 2701 §§ A

Attempted to cause, or intentionally, knowingly, or recklessly caused, bodily injury to another; and/or negligently caused bodily injury to
another with a deadly weapon; and/or attempted by physical menace to put another in fear of imminent serious bodily injury;
4

Victim: Eliezer Colon
COUNT 17:

Recklessly Endangering Another Person - (M2)

Offense Date: 02/10/2014

18 §2705

Recklessly engaged in conduct which placed or may have placed another person in danger of death or serious bodily injury
Victim: Eliezer Colon
CPCMS 9001

3

!
Printed: 06/05/2014 7:19:04AM

;

INFORMATION

Commonwealth of Pennsylvania
Court of Common Pleas
County of Philadelphia
1st Judicial District

Commonwealth of Pennsylvania
v.
Christopher Forman

Docket No: CP-51-CR-0006295-2014

Citation of Statute
and Section:

f
i

1
2
3
4
5
6
7
8
9

18 § 2701 §§ A (M2)
18 §2705 (M2)
18 § 3502 §§A1 (F1)
18 § 903 (F1)
18 § 3503 §§ A1II (F2)
18 § 3304 §§ A2 (F3)
18 § 3921 §§A (F3)
18 § 3925 §§ A (F3)
18 § 3701 §§ A1H (F1)

10 18§ 3502§§A1 (F1)

11 18 § 903(F1)
12
13
14
15
16
17

18 § 3503 §§ A1II (F2)
18 § 3304 §§ A2 (F3)
18§3921§§A(F3)
18 § 3925 §§ A (F3)
18 § 2701 §§ A (M2)
18 §2705 (M2)

All of which is against the Act of Assembly and the peace and dignity of the Commonwealth.

Philadelphia County District Attorney
R Seth Williams

r

CPCMS 9001

4

Printed:06/05/2014 7:t9:04AM

PETITIONER’S APPENDIX D

IN THE COURT OF COMMON PLEAS
FIRST JUDICIAL DISTRICT OF PENNSYLVANIA
TRIAL DIVISION - CRIMINAL SECTION

CP-51-CR-0006295- 2014

COMMONWEALTH OF
PENNSYLVANIA
v.

SUPERIOR COURT
NO. 3389 EDA 2019

CHRISTOPHER FORMAN

OPINION

JAN 13 2020
Office of Judicial Records
Appeals/PostTrial

COYLE, J.

I.

JANUARY 13,2020

FACTS and PROCEDURAL HISTORY
On January 13,2016, the Defendant, Christopher Forman (Appellant hereinafter ), appeared

before this Court and following a jury trial, was found guilty of Burglary - Overnight
Accommodation, Person Present,1 Conspiracy to Commit Burglary,2 Criminal Trespass3 and (2)

i

18 Pa. C.S.A. §3502

2 18 Pa, C.S.A. §903
3 I8Pa.C.S.A. §3503

counts of Recklessly Endangering Another Person.4 The evidence at trial established that on February
10,2014, at approximately 7:15pm, the complainant, Eliezer Colon, and his family were returning
home from work when the complainant realized there were people in his house. Mr. Colon observed
the Appellant and another male exiting the rear door .of his house. Once out of the house, Appellant
immediately jumped into an idling truck and fled the scene, The complainant and his family pursued
Appellant in their own vehicle wherein Appellant led them on a high speed chase down Roosevelt
Boulevard. Appellant made a U-turn and was driving straight at the complainant’s car. The
complainant veered out of the way as Appellant turned onto the cross street, struck a tree, and
proceeded to flee on foot. The complainant followed and held Appellant until police arrived.
Appellant was arrested and was charged with Burglary - Overnight Accommodation, Person
Present, Conspiracy to Commit Burglary, Robbery, Criminal Trespass, Simple Assault, and (2)
counts of Recklessly Endangering Another Person. After ajury trial, he was convicted ofBurglary Overnight Accommodation, Person Present, Conspiracy to Commit Burglary, Criminal Trespass, and
(2) counts of Recklessly Endangering Another Person. Sentencing was deferred pending a pre­
sentence investigation and mental health evaluation. Prior to sentencing, on March 9,2017, Appellee
filed a motion seeking application of section 9714 of the Mandatory Minimum Sentencing Act
(“Act”).

On April 6,2017, following argument, this Court concluded that the prior conviction which
triggered section 9714’s mandatory sentencing provision was a July 19,2005 voluntary manslaughter
conviction. Thereafter, this Court sentenced the Defendant to an aggregate term oftwenty-two (22)

4 18 Pa. C.S.A. §2705

to forty-four (44) years of incarceration.5 The Court filed a reconsideration of sentence sua sponte
and on April 17,2017, reduced the sentence to an aggregate term of fifteen and one-half (15 lA) to
forty-four (44) years of incarceration.6 A post-sentence motion was immediately filed and was
subsequently denied by operation of law. Appellant filed a Notice of Appeal on May. 10,2017. A
■

Statement of Errors Complained of on Appeal pursuant to Pa. R.A.P. Rule 1925 (b) was ordered by
this Court on May 24,2017. That statement was filed on June 14,2017 requesting an extension of
time to file a supplemental statement of errors upon receipt of the notes of testimony. After
receiving the notes of testimony, that statement was filed on July 28,2017.
On July 30, 2018, this Court filed its 1925(a) Opinion addressing Appellant’s issues. On
April 10, 2019, the Superior Court reversed and remanded the case for the trial court to determine
who filed the post-sentence motion in this case; the Appellant or prior counsel, Mary Maran, Esquire.
Attorney Maran informed this court that she had filed the post-sentence motion on behalf of
Appellant. On August 6, 2019, the Superior Court quashed the appeal due to the fact that
Appellant’s post-sentence “motion was still pending at the time [Appellant] filed his counseled
notice of appeal on May 10, 2017, and it was never formally disposed of by order docketed of
record.”

5 Appellant was sentenced to a mandatory tenn often (10) to twenty (20) years of incarceration on the charge of
burglary as a second strike followed by consecutive terms often (10) to twenty (20) years ofincarceration on the charge
of conspiracy to commit burglary, and one (1) to (2) years of incarceration on each count of recklessly endangering
another person. Each sentence was to run consecutive to any sentencing currently serving.
6 Appellant was sentenced to a mandatory term often (10) to twenty (20) years ofincarceration on the charge of
burglary as a second strike followed by consecutive terms of three and a half (314) to twenty (20) years of incarceration
on the charge of conspiracy to commit burglary, and one (1) to (2) years of incarceration on each count of recklessly
endangering another person. Each sentence was to run consecutive to any sentencing currently serving.

On November 19, 2019, this court entered upon the docket an order formally denying
Appellant’s timely post-sentence motion. Appellant filed a Notice ofAppeal on November 23,2019.
A Statement of Errors Complained ofon Appeal pursuant to Pa. R.A.P. Rule 1925 (b) was ordered
by this Court on December 9,2019. That statement was filed on December 6,2019.

II.

ISSUES ON APPEAL
Appellant raises the following issues verbatim on appeal:
1.

Was the defendant illegally sentenced pursuant to 42 Pa.C.S. A. §9714 insofar as the

Commonwealth did not sufficiently establish that defendant committed a crime of violence with
respect to the charge of burglary in the manner subjudice as no person was present in the residence
at the time of any alleged burglary?
2.

Should the mandatory minimum sentence imposed by the trial court under 42

Pa.C.S.A. §9714 be vacated, and this matter remanded for anew sentencing hearing, due to the fact
that §9714 is unconstitutional as currently drafted insofar as it violates defendant’s rights under Fifth
and/or Sixth Amendment to the U.S. Constitution (made applicable in this matter by the Fourteenth
Amendment to the U.S. Constitution) and Article I, § 9 ofthe Pennsylvania Constitution where facts
triggering the imposition of a mandatory minimum sentence are not treated as elements of a crime
submitted to a jury to be found beyond a reasonable doubt?

HI.

DISCUSSION
Appellant argues that the Commonwealth did not sufficiently establish that he committed a

crime of violence with respect to the charge of burglary as no person was present at the time of the
burglary. Additionally, he argues that he was illegally sentenced pursuant to 42 Pa.C.S.A. §9714
insofar as that statute, as written, violates his due process rights and his rights under the Fifth and/or
Sixth Amendment to theU.S. Constitution as made applicable by the Fourteenth Amendment ofthe
Pennsylvania Constitution. This argument fails.
The issue in this appeal is the constitutionality of section 9714 of the Mandatory Minimum
Sentencing Act (“Act”), 42 Pa.C.S. § 9714. Appellant concludes that the Court should not have
imposed a Section 9714(a) mandatory minimum sentence. Appellant’s claim challenges the legality
of his sentence. See Commonwealth v. Vasquez. 560 Pa. 381, 744 A.2d 1280 (2000) (stating
application of mandatory sentencing provisions implicates legality of sentence). Issues relating to
the legality of a sentence are questions of law. Commonwealth v. Diamond, 945 A.2d 252, 256
(Pa.Super.2008), appeal denied, 598 Pa. 755, 955 A.2d 356 (2008). The defendant or the
Commonwealth may appeal as of right the legality ofthe sentence. 42Pa.C.S.A. § 9781(a). See also
Commonwealth v. Edringtom 780 A.2d 721 (Pa.Super.2001) (maintaining legality ofsentence claims
cannot be waived, where reviewing court has proper jurisdiction). When the legality of a sentence is
at issue on appeal, our “standard ofreview over such questions is de novo and our scope ofreview is
plenary.” Diamond, supra at 256. If no statutory authorization exists for a particular sentence, that
sentence is illegal and subjectto correction. An illegal sentence must be vacated. Commonwealth v.
Pombo, 26 A.3d 1155,1157 (Pa.Super.2011) quoting Commonwealth v. Bowers, 25 A.3d349,352
(Pa.Super.2011); appeal denied, 616 Pa. 666, 51 A,3d 837 (2012).
Appellant attacks the legality of his sentence. Addressing his second issue first, Appellant

contends that he should be resentenced without the application of 42 Pa.C.S. § 9714(a)(2) because
the jury's finding that Eliezer Colon was inside his home on the 6600 block of Large Street at the
same time as Appellant was not supported by evidence ofrecord, and thus cannot constitute a “crime
of violence” for the application of § 9714(a)(2). This argument fails.
Here, the evidence established that Eliezer Colon and his family returned to their home after
work and dinner out to fmd that they could not enter their home because their key would not work;
the dead bolt had been locked from the inside. Before walking up to his front door, Mr. Colon
noticed that the upstairs lights were on, but wasn’t concerned because he just thought his wife had
simply forgotten to turn the light off that morning; he also noticed that the downstairs blinds were
“cracked”. When they were unable to open the front door, Mr. Colon realized someone was inside
his home he got his family back into the car and drove around to the back of the house. There is a
long driveway in the back and he pulled up to where he saw a truck parked behind his house. As he
got closer, he saw two (2) black males at the basement door trying to lift something out ofhis house.
As soon as the males saw him, they ran off; one ran off on foot and Appellant jumped into the truck
that was parked behind Mr. Colon’s house. (N.T. 1/10/17, pp. 6-14).
According to Appellant, since neither Mr. Colon nor his family were inside the house at the
time of the burglary, it was error to convict him of a crime of violence with respect to the charge of
burglary as no person was present in the residence at the time. This argument is flawed however
since the homeowner did return to his residence while Appellant was still present inside the house
and as stated by the Superior Court in Strepp. infra., “a technical application of the definition of
burglary misses the purpose and spirit which underlie the different gravity offense scores.” See

Commonwealth v. Stepp. 438 Pa. Super. 499,652 A.2d 922 (1995).
In Commonwealth v. Stepp, supra., the Superior Court, held:
For these reasons, we hold that, under 42 Pa.C.S.A, § 9721 (204 Pa.Code §
303.8(d)), burglary of a structure adapted for overnight accommodation “in
which at the time of the offense any person is present” includes burglaries
where someone enters the structure while the perpetrator is still inside the
structure. This is the proper approach as “the likelihoodfor greater mischief
and violence is equally present both when a person returns to, their residence
and discovers an Intruder and when a person already within the home
discovers an intruder,
Commonwealth v. Stepp. 438 Pa. Super, at 504, 652 A.2d at 924.
Tn Commonwealth v. Dickison. 334 Pa. Super, 549,483 A.2d 874 (1984), the Superior Court
reasoned:
The different gravity scores for burglaries committed of structures where
persons are present and structures where persons are not present is premised
upon the likelihood of greater mischief in the former situation. If a burglary is
' committed while the structure is occupied, the potential for additional and
more serious offenses is always present. Even ifno further crime is committed,
the presence of the victims and the potential for harm to them suggest an
offense possessing gravity greater than when no person is present.
The same rationale which is applied in Dickison. concerning “the likelihood of greater mischief’ is
applicable to a case such as the present one where the victim returns home only to find the sanctity
and security of his home shattered by an intruder. As the court has continuously expressed, the
danger of harm to a person is the same whether that person confronts the burglar upon re-entry into
his home or whether he comes downstairs and finds the burglar in his living room.

In either

situation, it does not advance the interests ofjustice to “reward” the burglar with a lower offense
gravity score simply because he was lucky at the moment he entered the then unoccupied structure, A
potentially violent encounter exists whenever a person discovers an intruder inside his home. Id.

Moreover, the burglary subcategories were designed to differentiate crimes with different
potential for injury and impact on the life of the victim. Burglaries of a structure adapted for
overnight accommodation include homes, hotels, motels, camp structures, bouse trailers, etc.
Burglaries in which at the time of the offense any person is present include burglaries where the
defendant did not know when he entered the structure that someone was present, and burglaries
where someone such as a returning resident or a policeman enters the structure when the defendant is
still inside.
Here, Mr. Colon testified that he did not give Appellant permission to be in his home; to lock
the deadbolt so that he could not enter. While investigating what he thought was true (that someone
was in his home), he observed Appellant and his accomplice trying to remove something from his
house; they exited his home through the back door in the basement. Both Appellant and his
unidentified accomplice were inside,Mr. Colon’s home and were still there when he returned home
from work with his wife and children. While one may argue it wasn’t the smartest idea, Mr. Colon
(with his family in the car) chased after Appellant (driving at a high rate of speed, ignoring traffic
lights, and veering across Roosevelt Boulevard) and held him until police arrived. The jury believed
Mr. Colon’s testimony at trial which was sufficient evidence to sustain the conviction of the
Appellant for his crimes. The jury, being free to believe all, some, or none of Colon’s testimony
unanimously determined as indicated on their verdict sheet, that he was in fact in the home at the
same time as Appellant. This finding is supported by the record, and thus this Court did not err in
determining that the Burglary conviction was a "crime of violence” for the application of § 9714(a)
(2).

Thus, Appellant’s prior Voluntary Manslaughter conviction coupled with the jury's
determination that Eliezer Colon was home when Appellant committed the instant Burglary, required
this Court to impose the mandatory “two-strike” provision set out at § 9714(a)(2). Accordingly the
sentence of 10-20 years is not only proper, it was in fact a requirement. See Commonwealth v.
Norris. 819 A.2d 568, 571 (Pa. Super. 2003) citinv Commonwealth v. Vasquez, 744 A.2d 1280,
1282 (Pa. 2000) (“Once a trial court has determined that the Commonwealth has established the
requirements of a legislatively mandated sentence, the trial court has no discretion to deviate its
sentence from that which is defined by statute ”)). See Commonwealth v. Knowles, 891 A.2d 745,
746-47 (Pa.Super.2006) (mandatory minimum under 42 Pa.C.S. § 9714 applies where residence
burglarized when homeowner was not home at time of break-in but arrived home while burglary was
in progress); Commonwealth v. Stepp. 652 A.2d 922 (Pa.Super.1995) (higher OGS applies when
homeowner was not home at time of break-in but arrived home while burglary was in progress);
rnmmrniwealth v. Jackson. 585 A.2d 533 (Pa.Super.1991) (higher OGS applies when owner is in
back porch of residence while it is burglarized). Accordingly, judgment of sentence should be
affirmed.
Next, Appellant contends that Pennsylvania's mandatory minimum statute at 42 Pa.C.S. §
97147 is unconstitutional and should not have been applied here, because as written, it violates his

7 § 9714. Sentences for second and subsequent offenses
(a) Mandatory sentence.—
(1) Any person who is convicted in any court of this Commonwealth of a crime of violence
shall, if at the time of the commission of the current offense the person had previously been
convicted of a crime of violence, be sentenced to a minimum sentence of at least ten years of
total confinement, notwithstanding any other provision of this title or other statute to the
contrary. Upon a second conviction for a crime ofviolence, the court shall give the person oral
and written notice of the penalties under this section for a third conviction for a crime of
violence. Failure to provide such notice shall not render the offender ineligible to be sentenced
9

due process rights in violation of the United States and Pennsylvania Constitutions. This Court
disagrees.
Upon considering a constitutional challenge, it must be remembered that a legislative
enactment enjoys a presumption in favor of its constitutionality and will not be declared
unconstitutional unless it clearly, palpably and plainly violates the Constitution. All doubts are to be
resolved in favor of a finding of constitutionality. Singer v. Sheppard, 464 Pa. 387,346 A.2d 897
(1975). See also Commonwealth v. Colon-Plaza. 2016 PA Super 50,136 A.3d 521,530 (2016) (All
doubts are to be resolved in favor of finding that the legislative enactment passes constitutional
muster. Thus, there is a very heavy burden of persuasion upon one who challenges the
constitutionality of a statute). The legislature must be respected in its attempt to exercise the State's
police power and the power of judicial review must not be used as a means by which the courts
might substitute its judgment as to public policy for that ofthe legislature. Glance v. Casey. 447 Pa.
77, 84, 288 A.2d 812, 816 (1972). Any discussion of the constitutionality of lawfully-enacted
under paragraph (2).
***
(d) Proof at sentencing.—Provisions of this section shall not be an element of the crime and
notice thereof to the defendant shall not be required prior to conviction, but reasonable notice
of the Commonwealth's intention to proceed under this section shall be provided after
conviction and before sentencing The applicability of this section shall be determined at
sentencing. The sentencing court, prior to imposing sentence on an offender under subsection
(a), shall have a complete record of the previous convictions of the offender, copies of which
shall be furnished to the offender. If the offender or the attorney for the Commonwealth
contests the accuracy of the record, the court shall schedule a hearing and direct the offender
and the attorney for the Commonwealth to submit evidence regarding the previous convictions
of the offender. The court shall then determine, by a preponderance of the evidence, the
previous convictions of the offender and, ifthis section is applicable, shall impose sentence in
accordance with this section.
42 Pa.C.S.A. § 9714(a)(2), (d) (emphasis added). The term “crime of violence” includes voluntary
manslaughter as defined in 18 Pa.C,S. § 2503. 42 Pa.C.S.A. § 9714(g).

10

legislation must commence with the restatement of the principle of law which creates a
‘presumption’ in favor of constitutionality. The burden rests heavily upon the party seeking to upset
legislative action on constitutional grounds; all doubt is to be resolved in favor of sustaining the
legislation. Singer v. Shepard, 346 A.2d 897,900 (Pa. 1975) quoting Milk Control Commission v.
'

Battista. 413 Pa. 652, 659, 198 A.2d 840, 843 (1964); See also Glanceyv. Casey, supra.
Additionally, recidivist legislation is designed to enhance sentences for those criminals who
persist in committing violent crimes. Commonwealth v. Eddiags. 721 A.2d 1095, 1100
(Pa.Super.1998), appeal granted and cross appeal denied, 561 Pa. 687, 751 A.2d 185, 2000 Pa.
Lexis 346 (2000); Commonwealth v. Parker. 718 A.2d 1266,1268 (Pa.Super.1998), appeal denied,
561 Pa. 655,747A.2d899, 1999 Pa. Lexis 3878 (1999). It is within the province ofthe legislature to
determine sentencing procedures. Commonwealth v. Wright 508 Pa. 25, 494 A.2d 354 (1985),
affirmed sub nom, McMillan v. Pennsylvania. 477U.S. 79,106 S.Ct. 2411, 91 L.Ed.2d 67 (1986).
The legislature defines the contours of a crime, sets the limits for punishment, and provides for
implementing and administering the penal system. Commonwealth v. Hernandez, 339 Pa. Super. 32,
488 A.2d 293, 298 (1985). Due process of law is not violated when courts accede to legislative
authority to frame a coherent statutory scheme for the administration of sentencing for certain
criminal offenses. Id. at 293. Moreover, in noncapital cases the legislature is not constitutionally
obligated to permit the convicted recidivist the opportunity to mitigate application of the statutorily
mandated sentence. See Commonwealth v. Waters. 334 Pa. Super. 513,483 A.2d 855, 861 (1984),
cert, denied, 471 U.S. 1137, 105 S.Ct. 2679, 86 L.Ed.2d 697 (1985) (stating “Determinations
regarding the appropriateness of individualized sentencing for noncapital cases are within the

province of the legislature. For first-degree murder, where the death sentence is not applicable, our
legislature has seen fit to impose a mandatory life sentence, choosing to deny the judiciary the
discretion allowed in sentencing many other types of offenders. Its decision to do so does not violate
the United States or Pennsylvania Constitutions”). See Commonwealth v, Wynn, 2000 PA Super
271, H 8,760 A.2d 40,44^5 (2000), revWa 567 Pa. 183,786 A.2d 202 (2001).
Furthermore, with Allevne [v. United States. 133 S.Ct. 2151 (2013)] in mind, the Superior
Court concluded, “the protections of the Sixth and Fourteenth Amendments of the United States
Constitution do not extend to the fact of prior convictions.” Commonwealth v. Lane, 81 A.3d 974,
976 n. 5. (Pa. Super. 2013) cltine Allevne v. United States. 133 S.Ct. 2151 (2013). In finding that
the court instead of a jury was proper in determining that § 9714 should apply, the Lane court
reasoned, “[bjecause it was solely the existence oftwo prior convictions that made Appellant eligible
for sentencing within a range of increased penalties, the court properly imposed the judgment of
sentence.” Id.
Additionally, the Allevne court noted that “{T}n Almendarez-Torres v. United States, 523 U.S.
224 (1998), we recognized a narrow exception to this general rule [that any facts that increase the
prescribed range ofpenalties to which a criminal defendant is exposed are elements ofthe crime] for
the fact of a prior conviction.” Allevne. 133 S.Ct. at 2160 n. 1. It is undisputed that 42 Pa.C.S.A.
§9714 is duly enacted legislation which compels this Court to presume its constitutionality.
As stated above, the appellate court has recognized that the mandatory minimum sentences
set forth in section 9714 are predicated on prior convictions and, thus, that provision is not
unconstitutional under Allevne. See Commonwealth v. Bragg. 133 A.3d328,333 (Pa. Super. 2016)

12

t

*■

(recognizing that 42 Pa.C.S. § 9714 “is not unconstitutional under Allevne as it provides for
mandatory sentences based on prior convictions”), affd, — Pa.------, 169 A.3d 1024 (2017) (per
curiam order). Thus, Appellant's challenge to the legality of his sentence is meritless on this basis, as
well. Furthermore, this Court lias not found any Pennsylvania case that has applied Allevne to
sentences enhanced solely by prior convictions, Thus, the application of § 9714(a)(1) to Appellant’s
sentence remains legal. As such, this Court imposed a lawful mandatory sentence upon Appellant as
to his burglary conviction under “second strike” legislation.

IV,

CONCLUSION
In summary, this court has carefully reviewed the entire record and finds no harmful,

prejudicial, or reversible error and nothing to justify the granting of Defendant’s request for relief
in this case. For the reasons set forth above, Defendant’s judgment of sentence should be
affirmed.

BY THE COURT: '

V

13

